                                                                       Office               Hotline

  Office of Inspector General                                          202.692.2900
                                                                       peacecorps.gov/OIG
                                                                       OIG Reports
                                                                                            202.692.2915 ‫ ׀‬800.233.5874
                                                                                            Online Reporting Tool
                                                                                            OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Director
               Joseph Hepp, Chief Financial Officer
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          September 30, 2014

Subject:       Final Report on the Capstone Audit of the Peace Corps’ Overseas Billings and
               Collections (IG-14-01-SR)

Transmitted for your information is our final report on the Audit of the Peace Corps’ Overseas
Billings and Collections.

We worked closely with the Office of the Chief Financial Officer throughout this review, and
received their expedited comments on the preliminary report. Management concurred with both
recommendations. Both recommendations will remain open pending confirmation from the chief
compliance officer that the documentation identified in management’s response has been
received. In its response, management described actions it is taking or intends to take to address
the issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the agency has taken these actions or that we have
reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities.

Please respond with documentation to close the open recommendations within 90 days of receipt
of this memorandum. You may address questions regarding follow-up or documentation to
Assistant Inspector General for Audit Judy Leonhardt at 202.692.2914.

Please accept our thanks for your cooperation and assistance in our review.

cc:     Laura Chambers, Chief of Staff
        Jacklyn Dao, White House Liaison
        Bill Rubin, General Counsel
        Carlos Torres, Associate Director, Global Operations
        Paul Shea, Deputy Chief Administrative Officer
        Patricia Barkle, Deputy Chief Compliance Officer
Peace Corps
Office of Inspector General




       Capstone Report:
 Overseas Billing and Collection
         IG-14-01-SR
                               September 2014
                                EXECUTIVE SUMMARY
BACKGROUND
The Office of Inspector General (OIG) conducted 51 audits of Peace Corps overseas posts (“the
posts”) between October 2007 and February 2014. This capstone report is a summary of the
internal control weaknesses over bills of collection (BOCs) we have noted in those reports. We
focus on BOCs in our audit program because they are at high risk for misappropriation. It is
essential that posts establish checks and balances and comply with Peace Corps policies to
provide for sound funds control. See the Background section and Appendix A for a description
of our objectives, scope, and methodology and Appendix C for all post audit reports we issued
between October 2007 and February 2014.

OBJECTIVE
Our objective in reviewing the BOC process in our post reviews is to assess the control processes
and determine the risk for misappropriation of funds. If we determine that a pervasive control
weakness exists, we then make agency-level control recommendations that we believe will
enhance the control environment. The purpose of this report is to provide management with a
summary of the BOC control issues our post audits have noted and to facilitate a better
understanding of the importance of internal controls, illustrate how effective control activities
will decrease the likelihood of BOC misuse, and help ensure the timely detection and follow up
of suspicious transactions.

RESULTS IN BRIEF
Over the last seven years, we have noted that posts have not always fully implemented the
required controls and post staff sometimes circumvented or ignored the controls; and the
monitoring activities at headquarters were not designed to detect the associated lapses in
controls. As a result, we identified the following methods cashiers and other post staff used to
misappropriate Peace Corps funds for personal gain by:

      collecting cash without recording it in the financial system,
      voiding BOCs without recording cash collected, and
      keeping cash from collections outside of the Peace Corps safe and using it for personal
       use.

We have also noted instances where staff did not properly report the selling price of post
property and vehicles sold and falsified financial records in an attempt to cover-up their
misappropriations. Inadequate oversight and monitoring controls allowed the misappropriation of
property to remain undetected and resulted in a loss of Peace Corps funds. Stronger monitoring
practices and controls will better prevent and detect these instances.

The Office of the Chief Financial Officer (OCFO) has responded to the control deficiencies
noted by implementing several of our recommendations to strengthen the control structure and
has made a conscious effort to improve control activities at posts by focusing on enhanced
monitoring at headquarters. Further, in several instances discussed in this report, OCFO alerted


Capstone Report: Overseas Billing and Collections                                                  i
us about suspicious activities at posts and has cooperated fully by providing information and data
to resolve the incidents.

OCFO and OIG continue to work together to help ensure controls are appropriately applied and
that staff is trained in their application. During FYs 2012 and 2013, OCFO worked with the three
Peace Corps regions (Africa, Inter-America and the Pacific, and Europe, Mediterranean and Asia
Operations) to conduct in-person training for cashiers and cashier supervisors (the country
director and the director of management and operations (DMO)). A DMO at one of the posts
used the knowledge he/she gained from this training to detect suspicious cashier behavior, which
lead to an OIG investigation and detection of the fraudulent action. These trainings support
efforts to prevent and detect fraud.

RECOMMENDATIONS
This report contains two recommendations directed to the Office of Global Accounts Payable at
Peace Corps headquarters, which if implemented, should strengthen internal control and correct
the deficiencies agency-wide.




Capstone Report: Overseas Billing and Collections                                                ii
                                                        TABLE OF CONTENTS

EXECUTIVE SUMMARY.............................................................................................................i

BACKGROUND ............................................................................................................................1

AUDIT RESULTS .........................................................................................................................4

          Controls in the BOC Process ................................................................................................................................ 4

          Instances of Misuse................................................................................................................................................ 5

          Conclusion.............................................................................................................................................................. 7


LIST OF RECOMMENDATIONS ..............................................................................................9

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY..........................................10

APPENDIX B: LIST OF ACRONYMS .....................................................................................11

APPENDIX C: AUDIT REPORTS FROM FYS 2008 TO 2014 .............................................12

APPENDIX D: CONTROL DEFICIENCIES NOTED ...........................................................13

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT ............................................14
                                      B ACKGROUND
The Peace Corps has established financial management policies and procedures for billing,
collections and imprest fund management. These policies and procedures include specific control
activities at the post and during monitoring processes at headquarters. All employees have access
to these policies and procedures, and management conducts targeted training for relevant staff
members.

BILLING AND COLLECTION PROCESS
Overseas posts collect funds from individuals, vendors, or local governments when a
reimbursement or other payment is due to the Peace Corps. Key billing and collection processes
include accounting for smaller items, such as staff personal use of post phones and vehicles, and
larger collections, such as host country contributions (HCC). HCC are the funds provided by host
countries to support Peace Corps programs. HCC offsets Peace Corps operational costs and
reduce appropriated funding requirements. Posts must maintain separation of responsibilities in
the performance of billing and collection; the same individual who performs billing activities
may not perform collection activities.

Once a post identifies an amount due, the billing officer prepares a BOC in FORPost, the post’s
financial system. The debtor must pay the collection officer, who records the receipt of funds in
FORPost which closes the BOC. The DMO authorizes any voided BOCs. The DMO is required
to review uncollected BOCs monthly and voided BOCs in the last 60 days; spot check the BOC
log with the billing files; follow-up on outstanding BOCs; and communicate any discrepancies to
post management (see Figure 1 below for an illustration of the billing and collection process).




Capstone Report: Overseas Billing and Collections                                               1
                         Figure 1. Illustration of Billing and Collection Process




IMPREST FUNDS
The Peace Corps currently deploys Volunteers in 63 developing countries where the banking
facilities are often more recently established institutions and the use of credit cards is sporadic.
Although the Peace Corps prefers to use credit cards and electronic fund transfers to disburse
payments, cash transactions remain an integral part of overseas post operations. As a result, the
posts employ cashiers to execute numerous collection and disbursement transactions from
imprest funds. Peace Corps management estimates that the total value of cash held in overseas
posts to be approximately $1.4 million.

Cash carries an inherent risk of loss, theft, and misuse. The posts use imprest funds to pay for
miscellaneous supplies, trainee allowances, host family payments, in-country travel advances,
and other small purchases. Although the majority of cash transactions are of small amounts, there
are instances when the cashiers handle transactions of significant amounts; for example vehicle
and personal property1 sales, and collection of HCC.

Peace Corps cashiers receive “advanced funds” from the U.S. Treasury through the U.S.
disbursing officer to operate the imprest fund. The Peace Corps follows the Departments of
Treasury and States’ regulations to operate the imprest fund. According to Department of
Treasury regulations, only a designated and authorized cashier can operate an imprest fund and is
personally accountable for the fund. The CD has overall responsibility for imprest fund
management and the DMO serves as the primary control point for financial and administrative

1
  Personal property is the term for property that is not real estate or a vehicle. It includes items such as furniture,
laptops, and cell phones that contain personally identifiable information.


Capstone Report: Overseas Billing and Collections                                                                         2
activities, including billing, collection and imprest fund management. The DMO performs a
monthly cash count and reconciles the balance in the imprest fund with financial records and
balance at the bank. The country director is required to communicate unresolved shortages
greater than $10 to the cashier monitors, Office of Global Accounts Payable, the U.S. disbursing
officer, the Region, and OIG within 24 hours.

AUDIT OBJECTIVES
Our objective in reviewing the BOC process in our post reviews is to assess the control processes
and determine the risk for misappropriation of funds. We then make agency-level control
recommendations that we believe will enhance the control environment. The purpose of this
report is to provide management with a summary of the BOC control issues our post audits have
noted and to facilitate a better understanding of the importance of internal controls, illustrate how
effective control activities will decrease the likelihood of BOC misuse, and help ensure the
timely detection and follow up of suspicious transactions.




Capstone Report: Overseas Billing and Collections                                                   3
                                         AUDIT RESULTS
During our audits at posts, we identified instances where the post staff perpetrated
misappropriations and/or fraudulent activity by exploiting weak internal controls or by not
following established policies and procedures for BOCs and imprest fund processes.

CONTROLS IN THE BOC PROCESS

During the aforementioned audits, we frequently noted that the posts did not consistently apply
important BOC controls. Maintaining key BOC documentation ensures effective oversight. The
timely recording of BOCs, reconciliation of receipts, and application of DMO oversight as well
as the appropriate separation of duties helps defend against misappropriation of funds. As a
result of important controls not being consistently applied, cashiers and other staff were able to
steal collected BOCs or withhold funds for their personal use. Table 1, below, summarizes the
control deficiencies noted in each of the 30 posts audited. Details for the 30 post audits
conducted can be found in Appendix D.

                  Table 1. BOC Control Deficiencies Noted in 30 Post Audits


  Receipt Reconciliation Not Performed




 Inadequate Supporting Documentation




       Inadequate Separation of Duties




           Inadequate DMO Oversight




                 Not Recorded Timely



                                         0   5      10       15      20      25    30   35     40
                                                     Total Number of Instances Noted
                                                            (can be >1 per post)




Capstone Report: Overseas Billing and Collections                                                    4
INSTANCES OF MISUSE

These control weaknesses provided greater opportunity for misuse and theft of government
funds. Over the past five years we have collaborated with OFCO to identify instances where the
posts have experienced cash loss and misuse of funds. OCFO referred some incidents to the
Investigation Unit for further action. OCFO has also implemented controls we’ve recommended
in our reports, as well as additional controls they have developed, to better mitigate these risks.

We have highlighted specific instances of misuse, below, to provide examples of how controls
are sometimes ignored or subverted and the misappropriation of funds that can result. Table 2
provides a discussion of the corrective actions OCFO and posts have taken to address the control
weaknesses noted.

Missing Funds at PC/Guatemala. During the audit, we noted control weaknesses in the billings
and collections process. As a result, the financial and administrative operations were not
functioning effectively and did not fully comply with agency policy and federal regulations. We
determined there was inadequate separation of duties for billings, collections, and other financial
and administrative processes. For instance, the administrative assistant (AA) was responsible for
determining monthly allowance payments, collecting cash refunds directly from Volunteers, and
cashing check refunds from the bank. The AA was also responsible for preparing a checklist for
determining allowance due, issuing BOCs, and collecting cash from terminated Volunteers, in
violation of Peace Corps policy. In addition, the AA did not prepare BOCs in a timely manner or
in some cases, at all. Further, the DMO did not monitor the billing and collection activities for
Volunteer refunds and failed to initiate corrective action after noticing deficiencies.

A subsequent OIG investigation determined that the post could not account for approximately
$7,000 U.S. dollar equivalent (USDE). The AA admitted negligence in the handling of refunds
for Volunteer living allowances but gave no clear explanation for the unaccountable funds 2. The
administrative officer and cashier were also unable to provide a clear explanation for the
unaccountable refunds. The post took corrective actions by assigning the billing responsibilities
to the financial assistant instead of the AA and reassigning the collection functions to the cashier,
in compliance with Peace Corps policy. As a result of the post’s corrective actions, we did not
make any recommendations to headquarters during this audit.

Misappropriation of Checks at PC/Malawi. The Investigation Unit received an allegation
regarding the propriety of cashiering operations and accounting for HCC . The investigation
concluded that the cashier could not account for approximately $55,100 USDE of HCC paid by
the government of Malawi. Specifically, the cashier voided $17,300 USDE in HCC checks and
failed to record HCC checks totaling $37,800 USDE in the billing and collection system.

This misappropriation of checks occurred because the post did not establish adequate control
over the billing and collection of HCC. As a result, there was a lack of segregation of duties,
written procedures, and timely and effective oversight over billing and collections. The DMO did
not reconcile the log of HCC checks received with the BOC log to detect those not issued in the
2
    The AA was subsequently terminated.


Capstone Report: Overseas Billing and Collections                                                     5
financial system. In addition, the FORPost system allowed cashiers to void BOCs without
getting the DMO’s approval, therefore enabling them to remove the collection from the records
without depositing the funds.3

Following the audit, OCFO improved the controls in the FORPost system to require DMO
approval on all voided BOCs. In addition, the post implemented a process to track anticipated
HCC collections and monitor whether the HCC was collected and deposited.

Misappropriation of Funds at PC/Tonga. OCFO reported an allegation to OIG that the cashier
had misappropriated imprest funds by withdrawing funds from the post’s bank account for
personal use. We performed an audit in response to this allegation and determined that the
cashier had potentially misappropriated a total of approximately $21,000 USDE by voiding
BOCs for sales of vehicles and Volunteer allowances and misappropriated proceeds from vehicle
sales.4 The former DMO failed to exercise due diligence when authorizing a voided BOC for the
sale of a vehicle and for Volunteer allowances. In addition, the former DMO did not monitor and
follow-up on overdue BOCs; obtain adequate support prior to voiding a BOC; or verify that the
cashier issued proper system-generated receipts for the BOC related to the sale of a vehicle.

Subsequently, OCFO enhanced procedures to require that the DMO void a BOC only after
issuing a new corrected BOC in the FORPost system. This process ensures that cashiers cannot
void BOCs because of errors or corrections and fail to re-enter the related corrections into the
system. This change applies to all overseas posts and also provides historical information that
helps explain the voided and re-entered transactions.




3
    The cashier was charged and prosecuted locally by the host country. page 3
4
    The cashier, a contractor, was debarred from government contracts.


Capstone Report: Overseas Billing and Collections                                                  6
                   Table 2. Examples of BOC Issues and Corrective Actions
        Country                     Issue                         Corrective Action
    PC/Guatemala        Collections from            The post reassigned responsibilities and
                        Volunteer living            oversight of Volunteer allowances and BOCs.
                        allowance refunds           We did not make recommendations to OCFO.
                        were not recorded as
                        BOCs.
    PC/Malawi           HCC were not billed         OCFO implemented a system requirement
                        or received and were        that DMOs must approve all voided BOCs.
                        voided.
    PC/Tonga            BOCs were voided            OCFO enhanced the procedures to require a
                        and collections were        new BOC be created before voiding a
                        misused.                    previous one.

CONCLUSION

The billings and collections process is a vulnerable area for posts. Although posts have limited
assets, it is important to ensure the necessary checks and balances for sound fund control. Doing
so effectively can be challenging in post operations. However, not doing so has resulted in
incidents or staff to embezzling funds or using them as personal loans. Specifically, cashiers and
other post staff collected cash without recording it in the financial system, voided BOCs without
recording cash collected, and concealed cash and check collections from management. In
addition, inadequate oversight and monitoring has allowed errors and fraudulent actions to
remain undetected, resulting in a loss of Peace Corps funds. Fraud and inappropriate practices
can weaken the control environment and erode employees’ trust and confidence in Peace Corps
management, especially when unlawful acts are not detected and offenders are not punished.

Throughout our audits and investigations, OCFO responded in a timely manner to the
deficiencies we noted in our reports by implementing our recommendations to improve control
activities at posts and through enhanced monitoring. In several of the examples previously
discussed, OCFO first identified the issue and worked closely with us on a resolution. Despite
enhanced controls, the misappropriations occurred primarily when post staff overlooked or
circumvented the internal controls in place. We will continue to work with OCFO, regional, and
post staff to help ensure effective oversight controls are in place to protect Peace Corps assets.

During FYs 2012 and 2013, the CFO and Peace Corps regions began conducting in-person
trainings for cashiers and cashier supervisors. We noted an example of a DMO who used the
training to detect misuse of BOCs. In addition, OCFO implemented the requirement that DMOs
approve voided BOCs and increased the monitoring performed of BOCs at headquarters. In our
opinion, the Office of Global Accounts Payable should take further steps to strengthen
headquarters’ oversight role and regional management should enhance its accountability of
overseas posts’ BOC processes to ensure the controls are in place and operating effectively.




Capstone Report: Overseas Billing and Collections                                                    7
               We recommend:

                   1. That the director of the Office of Global Accounts
                       Payable enhance the headquarters process for
                       monitoring bills of collections by developing standard
                       reports for bills of collections and voided transactions,
                       reviewing the reports for unusual trends and
                       transactions, and conducting follow-up with posts as
                       needed.

                   2. That the director of the Office of Global Accounts
                       Payable develop a risk assessment process for bills of
                       collection and imprest fund operations, use the risk
                       assessment to analyze post’s operations, and
                       communicate high risks and vulnerabilities to regional
                       management with recommended remedial action.




Capstone Report: Overseas Billing and Collections                                  8
                          LIST OF RECOMMENDATIONS
We recommend:

    1. That the director of the Office of Global Accounts Payable enhance the headquarters
        process for monitoring bills of collections by developing standard reports for bills of
        collections and voided transactions, reviewing the reports for unusual trends and
        transactions, and conducting follow-up with posts as needed.

    2. That the director of the Office of Global Accounts Payable develop a risk assessment
        process for bills of collection and imprest fund operations, use the risk assessment to
        analyze post’s operations, and communicate high risks and vulnerabilities to regional
        management with recommended remedial action.




Capstone Report: Overseas Billing and Collections                                                 9
     APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and complying with Peace Corps policies and federal
regulations. This capstone report provides a summary of billing and collection issues we
identified while conducting our post audits and investigations from October 2007 to February
2014. The reports listed below noted specific examples of billing and collection issues we have
noted in this report. We acknowledge support of the OCFO to alert us when they notice unusual
transactions, supply pertinent data, and participating in developing and implementing new and
improved control activities.

See the individual reports, listed in Appendix C for the audit standards applied and further details
about the objectives, scope, and methodology. Our audit criteria were derived from the following
sources: federal regulations, the Peace Corps Manual, Overseas Financial Management Handbook,
and other Peace Corps policies and initiatives.




Capstone Report: Overseas Billing and Collections                                               10
                       APPENDIX B: LIST OF ACRONYMS

  AA                          Administrative Assistant
  BOC                         Bill of Collection
  CD                          Country Director
  DMO                         Director of Management and Operations
  FY                          Fiscal Year
  OCFO                        Office of the Chief Financial Officer
  OIG                         Office of Inspector General
  USDE                        U.S. Dollar Equivalent




Capstone Report: Overseas Billing and Collections                     11
         APPENDIX C: AUDIT REPORTS FROM FYS 2008 TO 2014
FY 2014                                   FY 2011, Continued                FY 2009, Continued
Armenia Final Audit Report                Mozambique Final Audit Report     Nicaragua Final Audit Report
Macedonia Final Audit Report              Panama Final Audit Report         Samoa Final Audit Report
FY 2013                                   Rwanda Final Audit Report         Swaziland Final Audit Report
                                                                            Senegal Follow Up Audit Report
Jamaica Final Audit Report                Togo Final Audit Report           Uganda Follow Up Audit Report
Malawi Final Audit Report                 Ukraine Final Audit Report        FY 20085
South Africa Final Audit Report           FY 2010                           Armenia Follow-up Audit
Zambia Final Audit Report                 Burkina Faso Final Audit Report   Azerbaijan
FY 2012                                   Cape Verde Final Audit Report     Botswana
Costa Rica Final Audit Report             Kenya Final Audit Report          China Follow-up Audit
Jordan Final Audit Report                 Moldova Final Audit Report        Eastern Caribbean
Lesotho Final Audit Report                Mongolia Final Audit Report       El Salvador
Limited Scope Audit of Peace              Paraguay Final Audit Report       Fiji
Corps/China
Mali Final Audit Report                   Suriname Final Audit Report       Georgia
Tonga Final Audit Report                  Tanzania Final Audit Report       2008 Malawi Unaccounted Funds
                                                                            Investigation-Audit
FY 2011                                                                     Kazakhstan
Albania Final Audit Report                FY 2009                           Peru
Belize Final Audit Report                 Guatemala Final Audit Report      Philippines
Ethiopia Final Audit Report               Guinea Final Audit Report         South Africa
Mexico Final Audit Report                 Morocco Final Audit Report        Vanuatu Follow-up




5
    FY 2008 audit reports are not available online.


Capstone Report: Overseas Billing and Collections                                                       12
               APPENDIX D: CONTROL DEFICIENCIES NOTED

  Country         Inadequate         Untimely        Inadequate        BOC Not        Inadequate
                 Supporting         Recording of    Separation of   Reconciled with      DMO
                Documentation          BOC             duties           Receipt       Oversight
Azerbaijan                                
Botswana                                 
Burkina                                  
Faso
Cape Verde                                              
Eastern                                                                                
Caribbean
El Salvador                                                                            
Fiji                                                                                   
Georgia                                                                                  
Guatemala                                                                                
Guinea                                                                                    
Jamaica
Jordan                                                                   
Kenya                  
Lesotho                                                                                 
Macedonia                                               
Malawi                                                                                  
Mali                                                                     
Mexico                                   
Paraguay                                                                                
Peru                                                    
Philippines                               
Rwanda                                    
Samoa                                                   
South Africa                              
Suriname                                                                                
Swaziland                                                                                 
Tanzania                                  
Tonga                                                                                   
Uganda                                                                                    
Ukraine                                                                                




Capstone Report: Overseas Billing and Collections                                              13
      APPENDIX E: AUDIT COMPLETION AND OIG CONTACT
AUDIT COMPLETION                   This report was completed under the direction of former
                                   Assistant Inspector General for Audit Bradley Grubb by Lead
                                   Auditor Hal Nanavati and also includes work performed by
                                   Lead Auditor Rebecca Underhill and Auditors Steve Kaffen,
                                   Waheed Nasser, and Gabrielle Perret.




                                   Judy Leonhardt
                                   Assistant Inspector General for Audit


OIG CONTACT                        If you wish to comment on the quality or usefulness of this
                                   report to help us strengthen our product, please contact
                                   Assistant Inspector General for Audit Judy Leonhardt at
                                   jleonhardt@peacecorps.gov or 202.692.2914.




Capstone Report: Overseas Billing and Collections                                                14
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                 OIG@peacecorps.gov
          Online Reporting Tool: peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
             Twitter:              twitter.com/PCOIG
